UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2220
Donald R. Turner, Jr.
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Eastern District of Missouri - Cape Girardeau
(l:16-cv-00268-JAR)
ORDER
The

petition for rehearing en banc is denied. The petition for rehearing by the panel is

also denied.
February 11, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

©

Afp&vL\y
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2220

Donald R, Turner, Jr.
Petitioner - Appellant
v.

United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Eastern District of Missouri - Cape Girardeau
(1:16-cv-00268-JAR)
JUDGMENT

Before SHEPHERD, WOLLMAN, and STRAS, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
Appellant’s motion for leave to proceed in forma pauperis is denied as moot.
December 03, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 1 of 16 PagelD #: 486

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
SOUTHEASTERN DIVISION

DONALD R. TURNER, JR.,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

No. l:16-CV-00268 JAR

MEMORANDUM AND ORDER
This matter is before the Court on Movant Donald Turner, Jr.’s amended motion under 28
U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody. (Doc.
No. 27).1 The motion is fully briefed and ready for disposition. For the following reasons, Turner’s
motion is denied.2
I.

Background3

On August 18, 2011, a Grand Jury in the Eastern District of Missouri, Southeastern
Division, returned a 21 -count indictment against Turner and multiple other defendants, charging
them with various violations, including conspiracy, related to the distribution of, or possession
with intent to distribute, cocaine base. On March 28, 2013, a superseding indictment was issued
adjusting the charges for trial. Turner and two other co-defendants proceeded to trial on April 8,

1 The amended petition is the operative complaint in this matter; therefore, the original petition (Doc. No.
1) is denied as moot.
2 Because Turner’s motion can be conclusively determined based on the motion, files and records of the
case, an evidentiary hearing need not be held. See Shaw v. United States. 24 F.3d 1040, 1043 (8th Cir.
1994).
3 The underlying criminal proceedings can be found at United States v. Turner. Case No. l:ll-cr-00103JAR-8.

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 2 of 16 PagelD #: 487

2013. The jury returned its verdict on April 12, 2013, finding each defendant guilty of all pending
charges.
A Presentence Investigation Report (“PSR”) was prepared by the United States Probation
Office. In Turner’s PSR, the base offense level was 38 pursuant to U.S.S.G. § 2D1.1(c)(1), as the
offense involved more than 8.4 kilograms of cocaine base. Turner qualified as a career offender,
which imposes an offense level of 37; however, as the applicable offense level (38) is greater than
the offense level for a career offender, the offense level remained 38. Turner’s criminal history
category was VI. Thus, the guideline range of imprisonment was 360 months to life. However, the
statutorily authorized minimum sentences are greater than the maximum of the applicable
guideline range; therefore, the guideline term of imprisonment is life. U.S.S.G. § 5G1.2(b).
On July 11, 2013, the Court sentenced Turner to a mandatory term of life imprisonment on
Count I (Conspiracy to Possess 5 Kilograms or More of a Mixture or Substance Containing
Cocaine with Intent to Distribute) and concurrent terms of 360 months on Counts IV (Aiding and
Abetting the Distribution of a Mixture or Substance Containing Cocaine Base) and VI
(Distribution of a Mixture or Substance Containing Cocaine). Turner appealed his conviction and
sentence, and the Eighth Circuit affirmed. United States v. Turner. 781 F.3d 374 (8th Cir. 2015).
His request for rehearing en banc was denied on July 7, 2015, and his request for certiorari review
by the United States Supreme Court was also denied, Turner v. United States. 136 S. Ct. 280
(2015).
In his amended motion, Turner alleges eight grounds for relief:
(1) Trial counsel was ineffective for failing to object to the superseding indictment
on the grounds that it fails to charge an essential element of conspiracy, i.e., that
he “knowingly and intentionally joined” the conspiracy (Doc. No. 27-1 at 2-7);

2

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 3 of 16 PagelD #: 488

(2) Trial counsel was ineffective for failing to object to the Government’s failure
to charge facts essential to increasing his punishment under Allevne v. United
States. 133 S. Ct. 2151 (2013) (id. at 7-11);
(3) Appellate counsel was ineffective for failing to argue there was insufficient
evidence upon which to convict Turner at trial and instead arguing - frivolously
- that the Government’s witnesses were not credible (id. at 11-17);
(4) Appellate counsel was ineffective by failing to raise the issue of the lack of an
instruction on multiple conspiracies (id- at 17-22);
(5) Appellate counsel was ineffective for failing to correct testimony that Turner
claims was perjurious at trial (id- at 22-29);
(6) Appellate counsel was ineffective for failing to raise “viable issues” on appeal,
namely that the evidence was insufficient to convict Turner on Counts IV and
VI (id. at 29-34);
(7) Trial counsel was ineffective for failing to investigate the case thoroughly and
present exculpatory evidence, namely the testimony of co-defendant David
Turner (id. at 35-36), and for failing to request a Pinkerton Instruction for the
jury (id. at 36-38); and
(8) Turner’s due process rights were violated when he was classified as a recidivist
offender under 21 U.S.C. § 841 - by and through the misapplication of the
categorical approach (id. at 39-65).
Turner has also supplemented his amended motion with two additional grounds for relief based on
claims of actual innocence. (Doc. No. 30-1 at 1-11; Doc. No. 35 at 1-6).4
II.

Standard of Review

Pursuant to 28 U.S.C. § 2255, a federal prisoner may seek habeas relief “upon the ground
that the sentence was imposed in violation of the Constitution or laws of the United States, or that
the court was without jurisdiction to impose such sentence, or that the sentence was in excess of
the maximum authorized by law, or is otherwise subject to collateral attack.” 28 U.S.C. § 2255(a).

4 Turner filed an additional supplemental issue on February 19, 2020. (Doc. No. 32). As noted by the
Government, this additional supplemental issue appears to be identical to Turner’s Supplemental Issue
Nine, which raises a claim of actual innocence. The Government has responded to all issues raised.

3

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 4 of 16 PagelD #: 489

In order to obtain relief under § 2255, a movant must establish a constitutional or federal statutory
violation constituting “a fundamental defect which inherently results in a complete miscarriage of
justice.” United States v. Gomez. 326 F.3d 971, 974 (8th Cir. 2003) (quoting United States v.
Boone. 869 F.2d 1089, 1091 n.4 (8th Cir. 1989)).
It is well-established that a petitioner’s ineffective assistance of counsel claim is properly
raised under 28 U.S.C. § 2255 rather than on direct appeal. United States v. Davis. 452 F.3d 991,
994 (8th Cir. 2006); United States v. Cordv. 560 F.3d 808, 817 (8th Cir. 2009). The burden of
demonstrating ineffective assistance of counsel is on a defendant. United States v. Cronic, 466
U.S. 648, 658 (1984); United States v. White. 341 F.3d 673, 678 (8th Cir. 2003).
To prevail on an ineffective assistance of counsel claim, a criminal defendant must first
show counsel’s performance “fell below an objective standard of reasonableness. Strickland v.
Washington. 466 U.S. 668, 687-88 (1984). The defendant must also establish prejudice by showing
“there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. Id. at 687, 690, 694. Review of counsel’s performance by
the court is “highly deferential,” and the Court presumes “counsel’s conduct falls within the wide
range of reasonable professional assistance.” Anderson v. United States. 393 F.3d 749, 753 (8th
Cir. 2005).
III.

Discussion

Ground One
In Ground One, Turner argues that the superseding indictment alleging that he “did
knowingly and intentionally combine, conspire, confederate and agree” to commit the offense of
possession with intent to distribute was defective because it did not include the essential element
that he “knowingly or intentionally joined” an existing conspiracy. Turner focuses his challenge

4

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 5 of 16 PagelD #: 490

on the absence of the word “join” in the superseding indictment, arguing that as a result, he was
not put on notice of the charges and thus prevented from mounting an effective defense.
Specifically, Turner intended to introduce evidence that he was incarcerated in 2009 on unrelated
charges and therefore could not have been involved in the formation of a conspiracy with his co­
defendants.
Federal Rule of Criminal Procedure 7(c)(1) requires that an indictment be a “plain, concise,
and definite written statement of the essential facts constituting the offense charged.” “An
indictment is sufficient ‘if it contains all of the essential elements of the offense charged, fairly
informs the defendant of the charges against which he must defend, and alleges sufficient
information to allow a defendant to plead a conviction or acquittal as a bar to a subsequent
prosecution.’ ” United States v. Summers. 137 F.3d 597,601 (8th Cir. 1998) (quoting United States
v.

Wessels. 12 F.3d 746, 750 (8th Cir. 1993)). Further, an indictment is normally deemed sufficient

if its language tracks the statutory language. Hamling v. United States. 418 U.S. 87, 117 (1974).
“It is only in a rare case ... that the validity or sufficiency of an indictment or information is subject
to collateral attack by habeas corpus or under § 2255. Roth v. United States, 295 F.2d 364, 365
(8th Cir. 1961).
Count I of the superseding indictment alleges that:
[I]n and around October 2009, through August 3, 2011 ... [Movant and others] did
knowingly and intentionally combine, conspire, confederate and agree with each
other and persons known and unknown to the Grand Jury, to knowingly and
intentionally distribute 5 kilograms or more of cocaine hydrochloride, a Schedule
II narcotic controlled substance, in violation of Title 21, United States Code
§§ 84(a)(1) and 846, and punishable under Title 21, United States Code
§ 841(b)(1)(A).
United States v. Turner. Case No. 1:1 l-cr-00103-JAR-8, Doc. No. 1004. The statutory authority
for that charge is set forth below:

5

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 6 of 16 PagelD #: 491

(a) Unlawful acts
Except as authorized by this subchapter, it shall be unlawful for any person
knowingly or intentionally (1) to manufacture, distribute, or dispense, or possess with intent to manufacture,
distribute, or dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess with intent to distribute or dispense,
a counterfeit substance.
21 U.S.C. § 841(a).
Any person who attempts or conspires to commit any offense defined in this
subchapter shall be subject to the same penalties as those prescribed for the offense,
the commission of which was the object of the attempt or conspiracy.
21 U.S.C. § 846.
Here, the superseding indictment contains all of the essential elements of the offense and
tracks the language of the statute, and thus fairly informed Turner of the charges against him. The
superseding indictment is legally sufficient, and his counsel was not ineffective for failing to object
to it. Anderson v. United States. No. 4:18 CV1082 RWS, 2019 WL 1157410, at *3 (E.D. Mo. Mar.
13, 2019) (holding that counsel’s failure to raise a meritless argument cannot constitute ineffective
assistance). The claim in Ground One is therefore denied.
Ground Two
In Ground Two, Turner asserts his trial counsel was ineffective for failing to object to the
Government’s failure to charge facts essential to increasing his punishment under Allevne v.
United States. 570 U.S. 99, 117 (2013). In Allevne. the Supreme Court held that a fact that
increases a defendant’s mandatory minimum sentence is an element of the crime that must be
submitted to a jury. Turner argues that the Government presented evidence of overt acts, namely
eighteen uncharged drug transactions, as proof of the conspiracy and that because these

6

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 7 of 16 PagelD #: 492

transactions were not charged in the superseding indictment or referenced in the conspiracy count,
they fell outside the scope of the charge.
This argument is without merit. The evidence of the overt acts was relevant and admissible
on the existence and scope of the conspiracy but it was not an element of the offense. An element
of a crime is one of a set of facts that must all be proven to convict a defendant of a crime, whereas
overt acts, i.e., acts carried out in furtherance of a crime, do not. The elements of a conspiracy to
distribute a controlled substance are that (1) there was a conspiracy, that is, an agreement to
distribute the drugs; (2) that the defendant knew of the conspiracy; and (3) the defendant
intentionally joined the conspiracy. See United States v. Mallett. 751 F.3d 907,915 (8th Cir. 2014).
As the Government aptly points out, 21 U.S.C. § 846 does not require submission or proof of overt
acts to sustain a conspiracy conviction thereunder. United States v. Stephenson. 924 F.2d 753, 761
(8th Cir. 1991) (citing United States v. Covos. 872 F.2d 805, 809-10 (8th Cir. 1989)). Ground Two
will be denied.
Ground Three
In Ground Three, Turner claims his counsel was ineffective on appeal for focusing on the
credibility of the witnesses who testified that Turner was part of the conspiracy rather than on the
sufficiency of the Government’s evidence. Given that a substantial part of the Government’s
evidence to support Turner’s involvement in the conspiracy came from cooperating witnesses specifically Joe Lenzie Turner and Jerriereneika Dorsey - the Court finds that counsel’s decision
to pursue the credibility of witnesses was consistent with reasonable appellate strategy that, under
the deferential standard of review articulated in Strickland, should not be second-guessed. See
Evitts v. Lucev. 469 U.S. 387, 382 (1985) (Appellate counsel does not have a duty “to advance
every argument, regardless of merit, urged by the defendant.”); United States v. Brown, 528 F.3d

7

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 8 of 16 PagelD #: 493

1030, 1033 (8th Cir. 2008) (Absent contrary evidence, the failure to raise a claim is assumed to be
an exercise of “sound appellate strategy.”).
To show that his attorney was deficient in failing to raise the claim on appeal, Turner must
show a reasonable likelihood that, but for his attorney’s error, the result on appeal would have
been different. Reese v. Delo. 94 F.3d 1177, 1185 (8th Cir. 1996) (citing Blackmon v. White. 825
F.2d 1263, 1265 (8th Cir. 1987)). This Turner has failed to do. Thus, in light of the discretion
afforded to appellate counsel in selecting those issues most promising for review, and Turner’s
failure to demonstrate that these other issues would have been viable on appeal, the Court finds
that counsel’s performance was not deficient and that Turner has not demonstrated prejudice.
Ground Three will be denied.
Ground Four
In Ground Four, Turner first claims his counsel was ineffective for failing to raise the lack
of an instruction on multiple conspiracies. Turner states he was originally charged with conspiracy
to distribute cocaine, and that in the superseding indictment, he was charged with conspiring to
possess cocaine with intent to distribute, which he contends was an entirely different conspiracy
with a different objective. (Doc. No. 27-1 at 18).
A single conspiracy is composed of individuals sharing common purposes or objectives
under one general agreement. United States v. Delgado. 653 F.3d 729, 735 (8th Cir. 2011); United
States v. Smith. 450 F.3d 856, 860 (8th Cir. 2006). “[A] single overall conspiracy can be made up
of a number of separate transactions and of a number of groups involved in separate crimes or
acts.” United States v. McGilberrv. 620 F.3d 880, 885 (8th Cir. 2010). “That various conspirators
join at different times, change roles, or depart from the conspiracy does not convert a single
conspiracy into multiple ones.” United States v. Maza. 93 F.3d 1390, 1398 (8th Cir. 1996). “A

8

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 9 of 16 PagelD #: 494

single conspiracy may exist even if the participants and their activities change over time, and even
if many participants are unaware of, or uninvolved in, some of the transactions.” United States v.
Slagg, 651 F.3d 832, 840 (8th Cir. 2011).
To determine whether there are one or more conspiracies, the Court considers factors such
as “the nature of the activities, the location where the alleged events of the conspiracy occurred,
the identity of the co-conspirators, and the time frame.” United States v. Cubillos, 474 F.3d 1114,
118 (8th Cir. 2007) (quoting United States v. Bums. 432 F.3d 856, 863 (8th Cir. 2005)). Here,
there were no allegations of a separate conspiracy with a separate purpose, separate activities, or
separate locations; the evidence supported the Government’s theory of the case that Joe Lenzie
Turner, along with several of his friends and family members, including Donald Turner, Jr., were
involved in a conspiracy to distribute both powder and crack cocaine in and around the Sikeston
area. Turner. 781 F.3d at 380-81. See United States v. Benford. 360 F.3d 913, 914 (8th Cir. 2004)
(concluding a single conspiracy was proven when the evidence established a common goal to
distribute cocaine in a particular area).
Accordingly, counsel was not ineffective for failing to request an instruction on multiple
conspiracies when the evidence did not support such an instruction. Further, even if counsel was
ineffective in failing to argue for the instruction, Turner has failed to show he was prejudiced given
the overwhelming evidence against him. Therefore, Turner has failed to demonstrate that his
attorney’s decision not to seek an instruction on multiple conspiracies was anything other than a
strategic decision on his part.
Turner also claims his counsel was ineffective for failing to raise the lack of a limiting
instruction on co-conspirator liability. He contends that a limiting instruction that evidence relating

9

Case: l:16-cv-00268-JAR Doc.#: 37 Filed: 03/20/20 Page: 10 of 16 PagelD #: 495

to other conspiracies and activities of others cannot be held against him would have prevented the
jury from transferring liability associated with Jerrierenika Dorsey, Joe Turner, and others to him.
As discussed above, the evidence did not support multiple conspiracies, but instead pointed
to a single conspiracy. It is well established that a co-conspirator may be held vicariously liable
for the reasonably foreseeable substantive offenses committed by other co-conspirators in
furtherance of the conspiracy. Pinkerton v. United States. 328 U.S. 640 (1946); United States v.
Navarrete-Barron. 192 F.3d 786, 792 (8th Cir. 1999). Moreover, as the Government points out,
the jury was properly instructed on co-conspirator liability:
The quantity of controlled substances involved in the agreement or understanding
includes the controlled substances the defendant, Donald R. Turner, Jr., possessed
for personal use or distributed or agreed to distribute. The quantity also includes
the controlled substances fellow conspirators distributed or agreed to distribute, if
you find that those distributions or agreements to distribute were a necessary or
natural consequence of the agreement or understanding and were reasonably
foreseeable by the defendant.
(Jury Instruction No. 26, Case No. 1:11CR00103-JAR-8, Doc. No. 1059 at 30-31). For these
reasons, Ground Four will be denied.
Ground Five
In Ground Five, Turner alleges his counsel was ineffective for failing to address alleged
perjury by Detective Sullivan. Turner’s allegations concern statements made by Detective Sullivan
while setting the background for the events of March 11, 2011, when Turner distributed cocaine
to his cousin Toby Turner. Essentially, Turner asserts that Detective Sullivan had no direct
knowledge of or personal involvement in the events about which he testified, relying instead on
his review of a police report prepared by another officer.
Turner offers no evidence that Detective Sullivan’s statements were materially untrue. In
any event, any inaccuracies in Detective Sullivan’s testimony did not prejudice Turner given Toby

10

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 11 of 16 PagelD #: 496

Turner’s testimony about the March 11, 2011 transaction, and identification of the recorded phone
call with Turner setting up the deal, video recording of the actual transaction, and still photograph
of Turner handing Toby Turner the quarter ounce of crack cocaine. In addition, Turner’s counsel
vigorously cross-examined both Detective Sullivan and Toby Turner. For these reasons, Turner’s
claim is without merit. Ground Five will be denied.
Ground Six
In Ground Six, Turner alleges his counsel was ineffective for failing to raise “viable issues”
on appeal, namely that the evidence was insufficient to convict him on Counts IV and VI. Appellate
counsel does not have a duty “to advance every argument, regardless of merit, urged by the
defendant.” Evitts. 469 U.S. at 382. To show his attorney was deficient in failing to raise issues on
appeal, Turner must show a reasonable likelihood that, but for his attorney’s error, the result on
appeal would have been different. Id. (citing Blackmon v. White. 825 F.2d 1263, 1265 (8th Cir.
1987)). Absent contrary evidence, the failure to raise a claim is assumed to be an exercise of “sound
appellate strategy.” United States v. Brown. 528 F.3d 1030, 1033 (8th Cir. 2008) (internal citation
omitted).
Turner’s counsel filed a substantive brief on appeal raising several arguably meritorious
claims. Turner faces a high hurdle in demonstrating that counsel’s decision not to raise other claims
in addition or instead was ineffective, particularly given the overwhelming evidence of his guilt.
As discussed above, Turner has not succeeded in doing so. Ground Six will be denied.
Ground Seven
Turner argues that his trial counsel was ineffective for failing to call his co-defendant David
Turner to testify for the defense. Turner claims David Turner would have refuted the informant’s
assertion that Turner left the cocaine with David Turner to distribute. “The decision not to call a

11

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 12 of 16 PagelD #: 497

witness is a ‘virtually unchallengeable’ decision of trial strategy.” United States v. Staples. 410
F.3d 484, 488 (8th Cir. 2005) (citation omitted). Furthermore, there is generally a considerable
risk associated with calling co-defendants to testify because if a witness does not hold up well on
cross-examination, jurors might draw unfavorable inferences against the party calling him. Id. at
489.
Here, David Turner pled guilty and signed a written plea agreement admitting his
involvement in a conspiracy with Turner. Counsel’s strategic decision not to call David Turner
was reasonable because David Turner would have faced a vigorous cross-examination, and there
is a significant possibility that he would not have held up well in light of his plea agreement. Thus,
the Court concludes that trial counsel was not ineffective for failing to call David Turner as a
witness in Turner’s case.
Turner further argues his trial counsel was ineffective for failing to request a Pinkerton
instruction to clarify co-conspirator liability for the jury. In Pinkerton. 328 U.S. 640, the Supreme
Court ruled that a co-conspirator may be held vicariously liable for the reasonably foreseeable
substantive offenses committed by other co-conspirators in furtherance of the conspiracy. Turner
argues he was incarcerated in state prison during some of the relevant time period and thus had no
knowledge of the acts of others committed prior to his release or during the conspiracy and did not
benefit from them. This argument is without merit. As discussed above in Section III. D., a
conspiracy may exist even if the participants and their activities change over time, and even if
many participants are unaware of, or uninvolved in, some of the transactions. Slagg. 651 F.3d at
840. In any event, the Court has found that the jury was properly instructed on co-conspirator
liability. Ground Seven will be denied.
Ground Eight

12

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 13 of 16 PagelD #: 498

In Ground Eight, Turner asserts he was “erroneously classified as a recidivist offender
under 21 U.S.C. § 841 ’s recidivist clause ..Turner argues that Congress intended to restrict the
recidivist provisions of the Controlled Substances Act, 21 U.S.C. § 812, to drug trafficking crimes
under federal law, and that his sentence was improperly enhanced based on his Missouri state
convictions.
Because Turner failed to raise this claim during his trial or on direct appeal, it is
procedurally barred. Turner objected at sentencing, not to his classification as a recidivist for
purposes of § 841, but rather to the § 851 notice on the grounds that there was a clerical error.
(Sentencing Tr., Doc. No. 1218 at 33). In fact, Turner stipulated at trial to the convictions used to
enhance his sentence. See Turner. 781 F.3d at 394-95. “Section 2255 relief is not available to
correct errors which could have been raised at trial or on direct appeal, absent a showing of cause
and prejudice, United States v. Fradv, 456 U.S. 152, 167-68 (1982), or showing that the alleged
errors were fundamental defects resulting in a complete miscarriage of justice.” Ramey v. United
States. 8 F.3d 1313 (8th Cir. 1993V United States v. Smith. 843 F.2dll48, 1149 (8th Cir. 1988).5
Even if Turner’s claim was not procedurally barred, it would fail on the merits. See, e.g.,
Lopez v. Gonzales. 549 U.S. 47, 60 (2006) (“[A] state offense constitutes a ‘felony punishable
under the Controlled Substances Act” ... if it proscribes conduct punishable as a felony under that
federal law.”). Here, at least four of Turner’s prior state felony drug convictions constitute drug
trafficking crimes under federal law: Possession of Cocaine with Intent to Sell (PSR at *[| 59);
Possession of Crack Cocaine with Intent to Sell (PSR at 60); Delivery of Crack Cocaine (PSR at
K 63); and Distribution of Cocaine Base (PSR at 67).

5 To the extent Turner attempts to overcome the procedural default by claiming he is actually innocent, as
discussed infra, such attempt fails, as the evidence of his guilt was overwhelming.
13

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 14 of 16 PagelD #: 499

Turner also argues that his prior convictions do not qualify as controlled substance offenses
under the Guidelines because Missouri defines “controlled substance” more broadly than federal
law. This argument is foreclosed by Martinez v. Sessions. 893 F.3d 1067 (8th Cir. 2018), cert.
denied, 139 S. Ct. 1198 (2019), and Bueno-Muela v. Sessions. 893 F.3d 1073 (8th Cir. 2018), cert.
denied, 139 S. Ct. 1198 (2019). In those cases, the Eighth Circuit held that the various controlled
substances listed within Missouri’s statutory definition of “controlled substance” are separate
elements of Missouri drug offenses, and therefore that a Missouri drug offense conviction qualifies
as a controlled substance offense as long as the defendant’s conviction was based on a substance
that is also a controlled substance under federal law. See Martinez. 893 F.3d at 1070-73; BuenoMuela. 893 F.3d at 1074-76. Turner’s convictions were based on either cocaine or cocaine base.
The distribution of both these controlled substances is prohibited under 21 U.S.C. § 841.
For these reasons, Ground Eight will be denied.
Grounds Nine and Ten
The nature of Turner’s supplemental grounds for relief is not entirely clear. Although he
frames them as claims of actual innocence, Turner is essentially arguing that his sentence is invalid
because it was imposed without a finding of a “mixture or substance” as required under § 841
(b)(l)(A)(iii). (Doc. Nos 30-1 at 5; Doc. No. 35 at 5). To the extent Turner is challenging the
sufficiency of the evidence to support his conviction, the Court agrees with the Government that
the claims should be denied. First, Turner did not appeal the sufficiency of the evidence as it related
to his charges and, therefore, the claims are procedurally defaulted. Second, a review of the trial
transcript shows that ample evidence supports Turner’s convictions. There is no merit in this claim.
To the extent Turner is asserting claims of actual innocence, those claims also fail. In the
federal habeas context, “actual innocence” can refer to either a “gateway claim” or a “freestanding

14

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 15 of 16 PagelD #: 500

claim.” See Nash v. Russell. 807 F.3d 892, 898-99 (8th Cir. 2015). A gateway claim is a means by
which a prisoner can obtain federal review of a procedurally defaulted claim. Id. To establish a
gateway claim of actual innocence, a petitioner must satisfy a two-part test. Id. First, “the
‘allegations of constitutional error must be supported with new reliable evidence not available at
trial.’” Id. at 899 (quoting Amrine v. Bowersox. 238 F.3d 1023,1029 (8th Cir. 2001) (citing Schlup
v. Delo. 513 U.S. 298, 327-28 (1995)). Second, the petitioner must show “it is more likely than
not that no reasonable juror would have convicted him in light of the new evidence.” Id. The Eighth
Circuit has found that “evidence is new only if it was not available at trial and could not have been
discovered earlier through the exercise of due diligence.” Foster v. Cassadv. No. 4:15CV225-CASSPM, 2018 WL 1215319, at *4 (E.D. Mo. Feb. 5, 2018) (quoting Amrine. 238 F.3d at 1029).
As for a freestanding claim of actual innocence, the Eighth Circuit has expressed
uncertainty as to whether a petitioner may assert such a claim in a habeas petition, noting that
“[t]he Supreme Court has not decided whether a persuasive demonstration of actual innocence
after trial would render unconstitutional a conviction and sentence that is otherwise free of
constitutional error.” Dansbv v. Hobbs. 766 F.3d 809, 816 (8th Cir. 2014) (citing House v. Bell,
547 U.S. 518, 554-55 (2006)). However, the Eighth Circuit went on to explain that, if such a
freestanding actual innocence claim did exist, the threshold would be “extraordinarily high,” id. at
816 (quoting Herrera v. Collins. 506 U.S. 390, 417 (1993)), and “would require ‘more convincing
proof than the ‘gateway’ standard that allows for consideration of otherwise defaulted
constitutional claims upon a showing of actual innocence,” id. (quoting House. 547 U.S. at 555).
Turner has not alleged the facts necessary to establish actual innocence either as a gateway
claim or a freestanding claim of actual innocence, assuming the latter were recognized, particularly
given the overwhelming evidence against him. Turner does not allege that he has discovered any

15

Case: l:16-cv-00268-JAR Doc. #: 37 Filed: 03/20/20 Page: 16 of 16 PagelD #: 501

new evidence of his innocence, or that any of that evidence was not available at trial. Further, as
was stated previously, there was overwhelming evidence of Turner’s guilt in this case. Turner’s
supplemental grounds for relief will be denied.
On March 19,2020, Turner filed a reply to the Government’s response (Doc. No. 36) which
the Court has reviewed and considered. The Court finds Turner’s reply does not change any of his
claims or the conclusions reached by Court.
IV.

Conclusion

Accordingly,
IT IS HEREBY ORDERED that Movant Donald Turner Jr.’s Motion to Vacate, Set
Aside, or Correct Sentence pursuant to 28 U.S.C. § 2255 [1] is DENIED as moot.
IT IS FURTHER ORDERED that Movant Donald Turner Jr.’s amended Motion to
Vacate, Set Aside, or Correct Sentence pursuant to 28 U.S.C. § 2255 [27] is DENIED, and his
claims are DISMISSED with prejudice. An Order of Dismissal will accompany this Memorandum
and Order.
IT IS FINALLY ORDERED that because Turner cannot make a substantial showing of
the denial of a constitutional right, the Court will not issue a certificate of appealability. See Cox
v. Norris. 133 F.3d 565, 569 (8th Cir. 1997), cert, denied, 525 U.S. 834 (1998).
Dated this 20th day of March, 2020.

JOjaN A. ROSS
UNITED STATES DISTRICT JUDGE

16

Additional material
from this filing is
available in the
Clerk's Office.

